No. _ __

Jln mbe

~upreme <!Court of tbe fflniteb ~tate1'
JIAHAO KUANG; DERON COOKE, ON BEHALF OF THEMSELVES AND THOSE SIMILARLY
SITUATED,

V.

Applicants,

UNITED STATES DEPARTMENT OF DEFENSE; MARK ESPER, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF DEFENSE OF THE UNITED STATES DEPARTMENT OF DEFENSE,

Respondents.
APPLICATION DIRECTED TO THE HONORABLE ELENA KAGAN
FOR AN EXTENSION OF TIME TO FILE PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE

I, Melissa Arbus Sherry, a member of the Bar of this Court, hereby certify that
on January 17, 2020, I caused copies of this Application Directed to the Honorable
Elena Kagan for an Extension of Time to File Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit in the above-captioned case to
be mailed, first-class postage prepaid, to counsel for Respondents as listed below:
Noel Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Thomas G. Pulham
Attorney, Appellate Staff
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-4332
thomas. pulham@usdoj.gov

Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Application Directed to the Honorable Elena Kagan for an Extension
of Time to File Petition for Writ of Certiorari to the United States Court of Appeals
for the Ninth Circuit was transmitted to counsel for Respondents at the email
addresses indicated above.
I further certify that all parties required to be served have been served.

melissa.sherry@lw.com

Counsel for Applicants

